Nos. 19-416, 19-453
IN THE

Supreme Court of the United States
NESTLÉ USA, INC.,
Petitioner,
v.
JOHN DOE I, et al.,
Respondents.
CARGILL, INCORPORATED,
Petitioner,
v.
JOHN DOE I, et al., Individually and
on Behalf of All Proposed Class Members,
Respondents.
___________
On Petitions for Writs of Certiorari to the
U.S. Court of Appeals for the Ninth Circuit
BRIEF OF WASHINGTON LEGAL FOUNDATION
AND ALLIED EDUCATIONAL FOUNDATION
AS AMICI CURIAE IN SUPPORT OF PETITIONERS
Richard A. Samp
(Counsel of Record)
Marc B. Robertson
WASHINGTON LEGAL FOUNDATION
2009 Massachusetts Avenue, NW
Washington, DC 20036
(202) 588-0302
rsamp@wlf.org

Date: October 28, 2019

QUESTIONS PRESENTED
1. Whether the presumption against
extraterritorial application of the Alien Tort Statute, 28
U.S.C. § 1350, is displaced by allegations that a U.S.
company conducts general oversight of its foreign
operations at its headquarters, even though the conduct
alleged to violate international law occurred in—and the
plaintiffs suffered their injuries in—a foreign country,
and even though the plaintiffs’ alleged harms are not
directly traceable to any domestic activity.
2. Whether a domestic corporation is subject to
liability in a private action under the Alien Tort
Statute.

iii

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
INTERESTS OF AMICI CURIAE . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . 2
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THE PETITION . . . . 9
I.

REVIEW IS WARRANTED TO RESOLVE THE
CONFLICT AMONG THE FEDERAL APPEALS
COURTS OVER CORPORATE ATS LIABILITY . . . 9

II.

THE EXTRATERRITORIALITY STANDARD
A DOPTED B Y T HE N INTH C IRCUIT
CONFLICTS WITH DECISIONS OF THIS
COURT AND OTHER APPEALS COURTS . . . . . . 13

III.

IMMEDIATE REVIEW IS WARRANTED TO END
ABUSIVE ATS SUITS WHOSE PRINCIPAL
GOAL IS TO ATTRACT PUBLICITY BY
KEEPING LITIGATION ALIVE . . . . . . . . . . . . . 16

iv

Page
IV.

REVIEW IS WARRANTED IN LIGHT OF THE
ADVERSE “PRACTICAL CONSEQUENCES” OF
THE NINTH CIRCUIT’S ATS STANDARD . . . . . 19

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

v

TABLE OF AUTHORITIES
Cases:

Page(s)

Adhikari v. Kellogg Brown & Root, Inc.,
845 F.3d 184 (5th Cir. 2017) . . . . . . . . . . . . . . . . 14
Balintulo v. Ford Motor Co.,
796 F.3d 160 (2d Cir. 2015) . . . . . . . . . . . . . . . . . . 9
Doe I v. Cisco Systems, Inc.,
9th Cir. No. 15-16909 (appeal docketed
Sept. 24, 2015) . . . . . . . . . . . . . . . . . . . . . . . . 10, 19
Doe v. Drummond,
782 F.3d 576 (11th Cir. 2015) . . . . . . . . . . . . . . . 14
Doe I v. Nestlé, S.A. [“Nestlé I”],
766 F.3d 1013 (9th Cir. 2014) . . . . . . 3, 9, 10, 12, 20
Filartiga v. Pena-Irala,
630 F.2d 876 (2d Cir. 1980) . . . . . . . . . . . . . . . . . 16
In re Arab Bank, PLC Alien Tort Statute Litig.,
822 F.3d 34 (2d Cir. 2016)(order denying reh’g) . . 9
Jesner v. Arab Bank,
138 S. Ct. 1386 (2018) . . . . . . . 4, 6, 7, 10, 11, 12, 18
Kiobel v. Royal Dutch Petroleum Co.,
569 U.S. 108 (2013) . . . . . . . . 1, 6, 10, 13, 14, 15, 18
Kiobel v. Royal Dutch Petroleum Co.,
621 F.3d 111 (2d Cir. 2011),
aff’d, 569 U.S. 108 (2013) . . . . . . . . . . . . . . . . . . . . 9
Morrison v. National Australian Bank Ltd.,
561 U.S. 247 (2010) . . . . . . . . . . . . . . . . . . 13, 14, 15
Presbyterian Church of Sudan v. Talisman Energy,
Inc., 582 F.3d 244 (2d Cir. 2009),
cert. denied, 562 U.S. 946 (2010) . . . . . . . . . . . . . 20
RJR Nabisco, Inc. v. European Community,
136 S. Ct. 2090 (2015) . . . . . . . . . . . . . . . . 14, 15, 16
Sosa v. Alvarez-Machain,
542 U.S. 692 (2004) . . . . . . . . . . . . . . . 1, 6, 8, 18, 19

vi

Statutes:

Page(s)

Alien Tort Statute (ATS),
28 U.S.C. § 1350 . . . . . . . . . . . . . . . . . . . . . . . passim

Miscellaneous:
Jonathan A. Drimmer & Sarah R. Lamoree,
Think Globally, Sue Locally: Trends and
Out-of-Court Tactics in Transnational Tort
Actions, 29 Berkeley J. Int’l L. 456 (2011) . . . . . 16
End Slavery Now, “The ‘Chocolate Slaves’ of the
Ivory Coast” (Aug. 22, 2018), available
at www.endslaverynow.org/blog . . . . . . . . . . . . . 17
Green America, “End Child Labor in Cocoa,”
available at www.greenamerica.org . . . . . . . . . . 17
Sarah Grossman-Greene and Chris Byer, A Brief
History of Cocoa in Ghana and Côte d’Ivoire
(Tulane University 2009) . . . . . . . . . . . . . . . . . . . 20
Human Rights Watch, World Report 2019
(January 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . 19
The No Project, “Cocoa Slavery,” available
at www.thenoproject.org . . . . . . . . . . . . . . . . . . . 18

INTERESTS OF AMICI CURIAE
The Washington Legal Foundation (WLF) is a
public-interest law firm and policy center with
supporters in all 50 States.1 WLF promotes and defends
free enterprise, individual rights, a limited and
accountable government, and the rule of law.
WLF has frequently appeared as amicus curiae in
this and other federal courts to oppose litigation
designed to create new and expanded private rights of
action under the Alien Tort Statute (ATS), 28 U.S.C.
§ 1350. See, e.g., Kiobel v. Royal Dutch Petroleum Co.,
569 U.S. 108 (2013); Sosa v. Alvarez-Machain, 542 U.S.
692 (2004). WLF also filed briefs in support Petitioners
when they filed a certiorari petition in this case in 2015
and when it was before the Ninth Circuit. WLF believes
that an overly expansive interpretation of the ATS
threatens to undermine American foreign and domestic
policy interests.
The Allied Educational Foundation (AEF) is a
nonprofit charitable and educational foundation based
in Tenafly, New Jersey. Founded in 1964, AEF is
dedicated to promoting education in diverse areas of
study, such as law and public policy, and has appeared
as amicus curiae in this Court on a number of occasions.
Amici

1

are

concerned

that

permitting

Pursuant to Supreme Court Rule 37.6, amici state that
no counsel for a party authored this brief in whole or in part; and
that no person or entity, other than amici and their counsel, made
a monetary contribution intended to fund the preparation and
submission of this brief. More than 10 days before filing this brief,
amici notified all counsel of their intent to file. All parties have
provided written consent to the filing.

2
unsubstantiated ATS claims of this sort to survive a
motion to dismiss will impose unwarranted litigation
costs on American corporations conducting business
overseas. It will expose them to multi-decade litigation
(this case, for example, was filed more than 14 years
ago) even in the absence of factual allegations
demonstrating that they engaged in conduct directed at
bringing about the foreign human rights violations they
routinely are alleged to have aided and abetted.
Amici are also concerned that allowing ATS suits
of this sort to proceed through the discovery phase will
likely harm the very groups of people that attorneys
who file such suits claim to be helping. It will cause
American companies to become less willing to do
business in under-developed regions, thereby hindering
efforts by residents of those regions to achieve economic
gains.
STATEMENT OF THE CASE
Respondents are citizens of Mali who claim that
they were treated inhumanely while (as children) they
worked on cocoa plantations in Côte d’Ivoire
(hereinafter, “Ivory Coast”). The plantations were
owned by private farmers, and Respondents do not
contend that Petitioners ever managed them or held any
ownership interest. Nonetheless, Respondents contend
that their mistreatment amounted to international
human rights violations and that Respondents Nestlé
USA, Inc. (“Nestlé”) and Cargill, Inc.—processors and
chocolate manufacturers that purchased significant
quantities of cocoa grown in the Ivory Coast—aided and
abetted those violations, even though the operative
complaint contains no factual allegations that the

3
companies purchased cocoa from the plantations on
which Respondents worked.
Their ATS claims, filed in July 2005, have been
pending for 14 years. Throughout that period, counsel
for the plaintiffs have avoided specifying precisely what
they allege Nestlé and Cargill did to aid and abet
human rights violations. But human rights groups have
repeatedly used the lawsuit as a vehicle for criticizing
Nestlé, Cargill, and other multinational corporations for
not doing more to curb overseas human-rights violations
by foreign citizens and governments.
The federal district court twice dismissed the
complaint under Rule 12 for failure to state a cause of
action. The Ninth Circuit reversed both times, but it
never actually held that Respondents stated a claim
under the ATS. Its September 2014 decision: (1)
declined to consider whether Respondents adequately
alleged facts sufficient to satisfy the actus reus
requirements of an ATS claim, ordering that on remand
Respondents be permitted to amend their complaint in
light of two recent decisions from international warcrimes tribunals; and (2) rejected Nestlé’s and Cargill’s
argument that dismissal should be affirmed under
Kiobel, ruling instead that the case should be remanded
to allow Respondents to amend their complaint to allege
facts showing that they were not seeking
extraterritorial application of federal law. Doe I v.
Nestlé, S.A., 766 F.3d 1013, 1026, 1027 (9th Cir. 2014)
[“Nestlé I.”]2

2

The appeals court also held that international law
permits the filing of ATS claims against corporations (rejecting a

4
On remand, Respondents filed a Second Amended
Complaint (SAC) in July 2016. The district court in
March 2017 again granted a motion to dismiss the
complaint, holding that Respondents were seeking
extraterritorial application of the ATS. Pet. App. 63a84a.3 In light of that ruling, the court declined to decide
the actus reus issue or whether Respondents possessed
Article III standing, although both issues had been fully
briefed by the parties. Id. 64a.
The Ninth Circuit again reversed. Pet. App. 34a46a. It noted this Court’s holding in Jesner v. Arab
Bank, 138 S. Ct. 1386 (2018), that foreign corporations
cannot be sued under the ATS. Id. at 38a. But the
appeals court stated that “Jesner did not eliminate all
corporate liability under the ATS, and we therefore
continue to follow Nestlé I’s holding as applied to
domestic corporations.” Id. at 39a.
The Ninth Circuit also rejected Nestlé’s and
Cargill’s argument that the relevant focus of the ATS
(for purposes of determining whether Respondents’
claims were extraterritorial) was the location of the
alleged human rights violations and the location of
Respondents’ injuries—in this instance, the Ivory Coast.
Id. at 41a. The appeals court said that the ATS’s “focus”
also includes conduct that aids and abets human rights
violations, and that the ATS is properly invoked when
the aiding-and-abetting activity occurs within the
United States. Id. at 42a. The court cited, as examples

conflicting decision from the Second Circuit). Id. at 1021.
3

“Pet. App.” refers to the Petition Appendix in No. 19-453.

5
of relevant domestic conduct, the SAC’s allegations that
unspecified defendants: (1) provided “personal spending
money to maintain the farmers’ and/or the cooperatives’
loyalty as an exclusive supplier” of cocoa; and (2) “had
employees from their United States headquarters
regularly inspect operations in the Ivory Coast and
report back to the United States offices, where these
financing decisions ... originated.” Id. at 43a-44a.
The Ninth Circuit conceded that the allegations
of the SAC failed to specify which defendants allegedly
undertook actionable conduct within the United States:
The [SAC] names several foreign
corporations as defendants, and plaintiffs
concede those defendants must be
dismissed on remand. The [SAC] also
discusses defendants as if they are a single
bloc—a problematic approach that
plaintiffs would be well to avoid.
Id. at 44a. The court nonetheless concluded that
Respondents’ failure, during the first 14 years of
litigation, to allege specific domestic aiding-andabetting conduct by Nestlé and Cargill did not justify
dismissal of the claims. Instead, it ordered a remand to
allow Respondents to amend their complaint to specify
aiding and abetting conduct that “took place in the
United States” and that is “attributable” to either
Nestlé or Cargill. Id. at 46a.
A sharply divided appeals court denied a petition
for rehearing en banc. Pet. App. 5a-7a. Judge Bennett
(joined in whole or in part by seven other judges) filed
an opinion dissenting from the denial. Id. at 7a-33a.

6
He argued that corporations are not proper ATS
defendants, citing Jesner for the proposition that the
relevant policy determination—whether to extend ATS
liability to corporations—is one “for Congress and not
the courts.” Id. at 23a. He also concluded that
Respondents’ claims are impermissibly extraterritorial.
Id. at 24a-32a.
SUMMARY OF ARGUMENT
The petitions raise issues of exceptional
importance to the business community. The Court in
Sosa made clear that courts should exercise “great
caution” in recognizing new federal common-law rights
of action under the ATS. Sosa, 542 U.S. at 728. Indeed,
it indicated that there might not be any additional
causes beyond the three common-law rights of action
generally recognized at the time Congress adopted the
ATS in 1789. Id. at 724. The Court held in Kiobel that
relief under the ATS is unavailable for “violations of the
law of nations occurring outside the United States,”
because “the presumption against extraterritoriality
applies to claims under the ATS” and “nothing in the
statute rebuts that presumption.” Kiobel, 569 U.S. at
124. Citing its belief that “a decision to create a private
right of action is one better left to legislative judgment
in the great majority of cases” and that its reluctance to
create private rights of action “extends to the question
whether the courts should exercise the authority to
mandate a rule that imposes liability upon artificial
entities like corporations,” Jesner held that federal
courts should not “extend ATS liability to foreign
corporations.” Jesner, 138 S. Ct. at 1386, 1402-03.
But far from heeding Sosa’s, Kiobel’s, and

7
Jesner’s words of caution, the Ninth Circuit has taken
those decisions as license to continue with business as
usual and to create an ever-expanding array of federal
common law causes of action for alleged violations of the
law of nations. The causes of action recognized by the
Ninth Circuit panel in this case carry that trend to new
heights. In the course of doing so, the appeals court has
created and/or exacerbated several circuit splits that
warrant this Court’s immediate review.
Review is particularly warranted because, as this
case illustrates, plaintiffs’ attorneys are using ATS
litigation not as a means of obtaining redress for injured
clients but simply as a vehicle for attracting attention
to favored human-rights campaigns. The targets of
most ATS lawsuits are large corporations that conduct
business in less-developed countries. The complaints
invariably allege, as here, that the defendants have
aided and abetted human-rights violations by
others—governments and individuals within those
countries. Demonstrating actual wrongdoing by the
corporate defendants is usually at most an afterthought; indeed, amici are unaware of any federal court
finding that a large corporation violated the ATS.
Rather, the evident purpose is to prolong ATS lawsuits
for as many years/decades as possible as a means of
generating maximum publicity.
The Ninth Circuit has determined that during 14
years of litigation, Respondents have failed to plead an
actionable claim under the ATS. Yet it has authorized
Respondents to return to district court to try yet
again—and to do so under legal standards that conflict
with ATS standards adopted by other federal circuits
and this Court. Nestlé and Cargill should not be

8
required to endure another decade a litigation—and all
the damage to their brands that continued humanrights litigation entails—before obtaining resolution of
the important legal questions they have raised.
Immediate review is warranted.
Moreover, Sosa directs courts—when considering
whether to exercise their federal-common-law authority
to recognize a cause of action under the ATS—to take
into account “the practical consequences” of doing so.
542 U.S. at 732-33. Amici submit that the adverse
practical consequences of recognizing an aiding-andabetting cause of action against large corporations
based largely on their decisions to conduct business in
underdeveloped countries are significant. In particular,
impoverished nations—many of whose governments and
business communities have spotty human rights
records—cannot hope to improve their living standards
unless they can persuade large,
multi-national
corporations to conduct business within those nations.
Yet if corporations find themselves targeted by ATS
suits whenever they enter into a contract with a foreign
government or foreign business that violates human
rights, they will be less likely to enter into such
business transactions in the future—thereby harming
the very people most likely to be victims of human
rights abuses. Review is warranted to determine
whether this is the sort of tort action Congress had in
mind when it adopted the ATS.

9
REASONS FOR GRANTING THE PETITION
I.

REVIEW IS WARRANTED TO RESOLVE THE
CONFLICT AMONG THE FEDERAL APPEALS
COURTS OVER CORPORATE ATS LIABILITY

The Ninth Circuit held that it has authority and
discretion in an ATS suit to impose liability on a U.S.based corporation (such as Nestle or Cargill) without a
specific direction from Congress to do so. Pet. App. 38a39a.
Review of that holding is warranted to resolve a
longstanding circuit split regarding corporate liability
under the ATS. The Second Circuit has held that
corporate liability “is not a rule of customary
international law that we may apply under the ATS.”
Kiobel v. Royal Dutch Petroleum Co., 621 F.3d 111, 145
(2d Cir. 2011). That court has given every indication
that it plans to adhere to its holding. See, e.g., Balintulo
v. Ford Motor Co., 796 F.3d 160, 166 n.28 (2d Cir. 2015)
(criticizing district court for failing to follow Kiobel and
noting that the Supreme Court’s affirmance of Kiobel on
alternate grounds did not reduce the decision’s binding
authority within the Second Circuit); In re Arab Bank,
PLC Alien Tort Statute Litig., 822 F.3d 34 (2d Cir. 2016)
(Jacobs, J., concurring in the denial of rehearing en
banc) (explaining why reconsideration of the ATS
corporate liability issue was inappropriate despite the
acknowledged conflict with other appeals courts).
Nor has the Ninth Circuit given any indication
that it plans to back down from its conflicting decision.
The Ninth Circuit held in Nestlé I that both foreign and
domestic corporations are subject to suit under the ATS.

10
766 F.3d at 1021. It adhered to that position with
respect to domestic corporations even after reviewing
the Jesner decision:
[T]he Supreme Court in Jesner held that
foreign corporations cannot be sued under
the ATS. Jesner thus abrogates Nestlé I
insofar as it applies to foreign
corporations. But Jesner did not eliminate
all corporate liability under the ATS, and
we therefore continue to follow Nestlé I’s
holding as applied to domestic
corporations.
Pet. App. 38a-39a.
Indeed, the Ninth Circuit is awaiting the Court’s
action on this certiorari petition before proceeding with
yet another long-pending ATS lawsuit against a
domestic corporation. Doe I v. Cisco Systems, Inc.,
Ninth Cir. No. 15-16909, Dkt. #75 (Aug. 6, 2019)
(stating that no oral argument date will be set in fully
briefed ATS case until “Supreme Court proceedings in
Doe v. Nestle, No. 17-55435, if any, have concluded”).
This Court has twice granted certiorari petitions
to resolve the circuit conflict over corporate ATS
liability. The issue was squarely raised in Kiobel, but
the Court ultimately affirmed the Second Circuit’s
judgment on alternate grounds. Kiobel, 569 U.S. at 12425. In 2017, the Court granted review on the ATS
corporate liability issue in Jesner but resolved that case
without addressing whether domestic corporations are
subject to ATS claims. It ruled more narrowly that “any
imposition of corporate liability on foreign corporations

11
for violations of international law must be determined
in the first instance by the political branches of
Government.” Jesner, 138 S. Ct. at 1408. In the
absence of such a determination from Congress, the
Court ruled that courts lack authority to impose ATS
liability on a foreign corporation. Ibid.
Although Jesner did not decide whether courts
may impose ATS liability on domestic corporations, the
three opinions comprising the Court’s majority provided
significant guidance on how that issue should be
resolved. The Ninth Circuit’s conclusion that domestic
corporations are subject to ATS liability conflicts
sharply with that guidance, a conflict that provides an
additional reason to review the decision below.
Justice Kennedy’s three-justice plurality opinion
stated explicitly that “[t[he international community’s
conscious decision to limit the authority of international
tribunals to natural persons counsels against a broad
holding that there is a specific, universal, and obligatory
norm of corporate liability under currently prevailing
international law.” Jesner, 138 S. Ct. at 1401 (plurality
opinion).
Justice Alito’s opinion concurring in part and
concurring in the judgment stated that the ATS’s
principal objective was “to avoid diplomatic friction.”
138 S. Ct. at 1410. He concluded that “[f]ederal courts
should decline to create federal common law causes of
action under” the ATS unless doing so would “materially
advance the ATS’s objective of avoiding diplomatic
strife.” Ibid. He foresaw no possibility that declining to
create corporate liability under the ATS would “give
other nations just cause for complaint against the

12
United States” given that “customary international law
does not require corporate liability as a general matter.”
Ibid. Justice Alito’s opinion strongly implies that ATS
actions are unauthorized not only with respect to
foreign corporations but also with respect to domestic
corporations.
Justice Gorsuch’s separate opinion provides even
stronger guidance against ATS corporate liability. He
would have held that courts lack authority to create any
causes of action under the ATS other than the three
recognized under international common law when the
ATS was enacted in 1789; those three did not include
aiding-and-abetting claims of the sort now routinely
raised within the Ninth Circuit against domestic
corporations. 138 S. Ct. at 1412-13.
Before issuing its decision, the court below
directed the parties to submit supplemental briefs on
Jesner’s relevance. After full consideration, the Court
stated that Jesner “did not eliminate all corporate
liability under the ATS, and we therefore continue to
follow Nestlé I’s holding as applied to domestic
corporations.” Pet. App. 39a. That statement confirms
that no purpose would be served by delaying review of
this issue to permit the Ninth Circuit to once again
consider its position in light of Jesner.
The
longstanding circuit conflict over corporate ATS liability
will persist unless the court grants review to resolve it
now.

13
II.

T HE E XTRATERRITORIALITY S TANDARD
ADOPTED BY THE NINTH CIRCUIT CONFLICTS
WITH DECISIONS OF THIS COURT AND OTHER
APPEALS COURTS

Review is also warranted to resolve the sharp
circuit conflict regarding when application of the ATS
should be deemed extraterritorial and thus barred by
this Court’s Kiobel decision.
Federal statutes are subject to a presumption
against extraterritorial application; “[w]hen a statute
gives no clear indication of an extraterritorial
application, it has none.”
Morrison v. National
Australia Bank Ltd., 561 U.S. 247, 255 (2007). Kiobel
held that although the ATS is strictly a jurisdictional
statute and does not directly regulate conduct or afford
relief, the principles underlying the presumption
against extraterritorial application “similarly constrain
courts considering causes of action that may be brought
under the ATS.” 569 U.S. at 116. The Court held that
the ATS includes “no clear indication” that Congress
intended extraterritorial application and thus that any
ATS claim “seeking relief for violations of the law of
nations occurring outside the United States is barred.”
Id. at 125. Moreover, even if an ATS claimant points to
some actions by the defendant with a domestic nexus,
his claims are still barred unless the claims “touch and
concern the territory of the United States ... with
sufficient force to overcome the presumption against
extraterritorial application.” Id. at 124-25.
The district court dismissed Respondents’ claims,
holding that the Second Amended Complaint sought
extraterritorial application of the ATS. The Ninth

14
Circuit reversed, finding that Respondents had alleged
“domestic conduct [that] is relevant to the ATS’s focus.”
Pet. App. 44a. The Ninth Circuit pointed to two
allegations in the SAC that it deemed “domestic
conduct” and “relevant to the ATS’s focus”: (1)
unspecified defendants provided “personal spending
money to maintain the farmers’ and/or the cooperatives’
loyalty as an exclusive supplier” of cocoa; and (2)
unspecified defendants “had employees from their
United States headquarters regularly inspect operations
in the Ivory Coast and report back to the United States
offices, where these financing decisions ... originated.”
Id. at 43a-44a.
Petitioners have explained at length why the
decision below conflicts sharply with decisions of the
Second, Fifth and Eleventh Circuits regarding
standards for determining what constitutes domestic
application of the ATS. See Nestlé Pet. at 15-20; Cargill
Pet. at 20-25 (citing, among other decisions, Doe v.
Drummond, 782 F.3d 576 (11th Cir. 2015); and
Adhikari v. Kellogg Brown & Root, Inc. 845 F.3d 184
(5th Cir. 2017)).
Amici will not repeat those
explanations here.
Amici write separately to explain why the
decision below also conflicts sharply with this Court’s
decisions in Kiobel, Morrison, and RJR Nabisco, Inc. v.
European Community, 136 S. Ct. 2090 (2015). To
determine whether Respondents’ claims involve
domestic application of the ATS, RJR Nabisco instructs
courts to look to the statute’s “focus.” “If the conduct
relevant to the focus occurred in a foreign county, then
the case involves an impermissible extraterritorial
application regardless of any other conduct that

15
occurred in U.S. territory.” 136 S. Ct. at 2101.
The Ninth Circuit’s understanding of the “focus”
test conflicts with the test as it is articulated in Kiobel,
Morrison, and RJR Nabisco. The Ninth Circuit held
that the “focus” of the ATS includes conduct that in any
manner “aids and abets” violations of the law of nations.
Pet. App. 42a. It thus concluded that claims alleging
activities by Nestlé or Cargill within the United States
that contributed to human rights violations by Ivory
Coast farmers constitute domestic application of the
ATS. Id. at 43a-44a.
This Court has adopted a far narrower conception
of a statute’s “focus.” In Morrison, for example, the
Court held that the “focus” of the Securities Exchange
Act of 1934 was the actual purchase and sale of
securities. 561 U.S. at 266. Because the securities
transactions at issue in Morrison occurred in Australia,
the Court determined that they were not subject to U.S.
securities laws. Id. at 266-67. The Solicitor General
urged the Court to define the Act’s focus far more
broadly, to encompass any transnational securities
fraud “when the fraud involves significant conduct in
the United States that is material to the fraud’s
success.” Id. at 270. The Court rejected that approach
and thus discounted the relevance of evidence that the
defendants’ misconduct originated in the United States.
Id. at 266.
The ATS “focus[es]” on violations of international
law, and all alleged international-law human-rights
violations in this case (and resulting injuries) are
alleged to have occurred in the Ivory Coast.
Respondents allege that unspecified defendants assisted

16
Ivory Coast farmers in these violations from within the
United States by providing funding and regularly
monitoring farm activities. The Ninth Circuit’s holding
that such U.S.-based financial assistance is the “focus”
of the ATS sharply conflicts with Morrison’s conclusion
that fraudulent conduct within the U.S. is not included
within the “focus” of U.S. securities law—even when
that conduct is “material to the success” of overseas
securities fraud. Nor can that holding be reconciled
with RJR Nabisco’s edict that “[i]f the conduct relevant
to the focus occurred in a foreign country, then the case
involves an impermissible extraterritorial application
regardless of any other conduct that occurred in U.S.
territory.” 136 S. Ct. at 2101.
III.

IMMEDIATE REVIEW IS WARRANTED TO END
ABUSIVE ATS SUITS WHOSE PRINCIPAL GOAL IS
T O A TTRACT P UBLICITY B Y K EEPING
LITIGATION ALIVE

When the revival of ATS litigation began four
decades ago, ATS claims typically targeted deposed
foreign officials accused of torturing citizens of their
own countries. See, e.g., Filartiga v. Pena-Irala, 630
F.2d 876 (2d Cir. 1980). But for the past 20 years, most
all ATS litigation has targeted large multi-national
corporations. The lawsuits rarely allege that the
corporate defendant violated human rights (by, e.g.,
engaging in genocide, torture, or slavery). Rather, they
typically allege that the corporate defendant aided and
abetted human-rights violations committed by citizens
or governments in a country in which the corporate
defendant conducts business—with the alleged aid often
taking the form of financial assistance to the alleged
perpetrators. See Jonathan A. Drimmer & Sarah R.

17
Lamoree, Think Globally, Sue Locally: Trends and Outof-Court Tactics in Transnational Tort Actions, 29
Berkeley J. Int’l L. 456, 460-63 (2011).
Remarkably, among the more than 150 ATS
claims filed against multi-national corporations, not one
(to amici’s knowledge) has concluded with a plaintiff
verdict. Many of the lawsuits languished (or continue
to languish) in federal court for a decade or more, often
never advancing beyond the pleadings stage. This case
is typical. Nestlé and Cargill have spent 14 years
contesting Respondents’ claims; a third defendant,
Archer-Daniels-Midland Co., entered into a settlement
agreement rather than continue to face mounting
litigation costs and assaults on its reputation. The
court below determined that during those 14 years,
Respondents have failed to plead an actionable claim
under the ATS. Yet it has authorized Respondents to
return to district court to try yet again.
Amici submit that permitting this case to drag on
plays directly into the hands of human-rights activists
who pursue ATS litigation against multi-national
corporations. They have displayed remarkably little
interest in pursuing this lawsuit to resolution. Rather,
the apparent purpose of these lawsuits is to serve as an
adjunct to human-rights campaigns being waged in the
press and before legislatures. Labor conditions in thirdworld countries rarely meet standards mandated in
Western countries. Human-rights groups have worked
tirelessly to bring attention to those sub-standard
conditions. See, e.g., End Slavery Now, “The ‘Chocolate
Slaves’ of the Ivory Coast” (Aug. 22, 2018), available at
www.endslaverynow.org/blog; Green America, “End
Child Labor in Cocoa,” available at

18
www.greenamerica.org; The No Project, “Cocoa
Slavery,” available at www.thenoproject.org. The
existence of lawsuits against high-profile defendants
has been a valuable resource for those public-relations
campaigns.
Nestlé and Cargill should not be held hostage to
those campaigns. Unless review is granted and this
interminable lawsuit can be brought to an end,
Respondents will have achieved their purpose—which
has everything to do with keeping a favored issue in the
headlines and nothing to do with the merits of their
claims against Nestlé and Cargill. Immediate review is
warranted; otherwise, this case can be expected to
languish within the Ninth Circuit for years to come.
Other federal circuits have taken to heart the
strict limitations on ATS claims imposed by Sosa,
Kiobel, and Jesner. As Jesner explained, “The Court’s
recent precedents cast doubt on the authority of courts
to extend or create private rights of action even in the
realm of domestic law, where the Court has recently
and repeatedly said that a decision to create a private
right of action is one better left to legislative judgment
in the great majority of cases.” 138 S. Ct. at 1402. But
the Ninth Circuit apparently is oblivious to those
warnings. The court below yet again endorsed creation
of expansive ATS causes of action against domestic
corporations for overseas activity.
One can reasonably expect human-rights activists
to file their future ATS lawsuits in district courts within
the Ninth Circuit.
By classifying Respondents’
allegations (meetings in a U.S. corporate headquarters
at which payments for overseas products are approved)

19
as a “domestic” application of the ATS, the Ninth
Circuit has assured that ATS litigation of the sort at
issue here and in Doe I v. Cisco will continue to thrive.
Meetings of that description are routine at major
companies; it is difficult to imagine a large U.S.-based
corporation winning dismissal on extraterritoriality
grounds under the standard adopted by the court below.
In sum, review is warranted to bring an
immediate end to abusive ATS litigation of the sort at
issue here.
IV.

REVIEW IS WARRANTED IN LIGHT OF THE
ADVERSE “PRACTICAL CONSEQUENCES” OF THE
NINTH CIRCUIT’S ATS STANDARD

Review is also warranted in light of the
significant practical consequences of permitting ATS
claims of this sort to go forward. Sosa instructs that
federal courts, when considering whether to exercise
their federal-common-law authority to recognize a
cause of action under the ATS, to take into account “the
practical consequences” of doing so. 542 U.S. at 732-33.
As a practical matter, multi-national corporations
cannot undertake major industrial or commercial
activities in an impoverished nation without the active
cooperation of that nation’s government and business
community. It is a regrettable but undeniable fact that
the governments and large domestic employers in many
such nations do not respect the human rights of their
citizens. See, e.g., Human Rights Watch, World Report
2019 (January 2019) (documenting human rights
abuses in more than 100 countries).

20
If multi-national corporations find themselves
targeted by ATS suits whenever they enter into a
contract with a foreign government or foreign business
that violates human rights, they will be less likely to
enter into such business transactions in the
future—thereby harming the very people that ATS
litigation is designed to help. Indeed, Talisman Energy,
Inc.’s decision to abandon its oil exploration activities in
South Sudan was triggered in large part by the adverse
publicity it suffered while being targeted with an ATS
lawsuit by activists in New York. See Presbyterian
Church of Sudan v. Talisman Energy, Inc., 582 F.3d 244
(2d Cir. 2009), cert. denied, 562 U.S. 946 (2010).
Talisman Energy was targeted for having provided
financial support to the government of Sudan during a
period of civil unrest.
There are more than 900,000 cocoa farmers in the
Ivory Coast, most of whom operate small family farms.
Three-and-one half million people (out of a total
national population of 22 million) rely on cocoa
production for their livelihood. See generally, Sarah
Grossman-Greene and Chris Byer, A Brief History of
Cocoa in Ghana and Côte d’Ivoire (Tulane University
2009). Abuse of child labor has been a persistent
problem on Ivory Coast farms for decades. The Ninth
Circuit apparently believes that it has the answer to
ending such abuse: multinational corporations should
cease doing business with farms that engage in abusive
labor practices. Nestlé I, 766 F.3d at 1024-26.
But it is difficult to see how boycotts of the Ivory
Coast cocoa market—steps likely to decrease cocoa
production and agricultural employment—could lead to
improved conditions among the nation’s agricultural

21
workers. Nor are improved conditions likely to be
achieved by authorizing expanded ATS lawsuits against
multinational corporations.
CONCLUSION
The Court should grant the Petitions.
Respectfully submitted,
Richard A. Samp
(Counsel of Record)
Marc B. Robertson
WASHINGTON LEGAL FOUNDATION
2009 Massachusetts Avenue, NW
Washington, DC 20036
(202) 588-0302
rsamp@wlf.org
Dated: October 28, 2019

